No. 20-1775
IN THE
SUPREME COURT OF THE UNITED STATES
THE STATE OF ARIZONA, ET AL.,
v.

Petitioners,

CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CITY AND COUNTY SAN FRANCISCO AND
COUNTY OF SANTA CLARA’S
BRIEF IN OPPOSITION

Dennis J. Herrera
San Francisco City Attorney
Jesse C. Smith
Ronald P. Flynn
Yvonne R. Meré
Sara J. Eisenberg
Counsel of Record
Deputy City Attorneys
City Attorney’s Office
City Hall Room 234
One Dr. Carlton B. Goodlett Pl.
San Francisco, CA 94102
Telephone: (415) 554-4633
Sara.Eisenberg@sfcityatty.org
Attorneys for Respondent
City and County of San Francisco

James R. Williams
County Counsel
County of Santa Clara
Greta S. Hansen
Laura Trice
Raphael N. Rajendra
Julia B. Spiegel
H. Luke Edwards
Hannah Kieschnick
Deputy County Counsels
70 West Hedding Street
East Wing, Ninth Floor
San Jose, CA 95110-1770
Telephone: (408) 299-5900
Attorneys for Respondent
County of Santa Clara

REASONS FOR DENYING PETITION
Respondents City and County of San Francisco and County of Santa Clara hereby
join in the Brief in Opposition filed by the States of California, Maine, Oregon,
Pennsylvania, and the District of Columbia (“States’ Brief in Opposition”).
San Francisco and Santa Clara agree that the Petition for Certiorari should be
denied for the reasons stated in the States’ Brief in Opposition.

Respectfully submitted,
Dennis J. Herrera
San Francisco City Attorney

James R. Williams
County Counsel, County of Santa Clara

by: /s/ Sara J. Eisenberg
Sara J. Eisenberg

by: /s/ Raphael N. Rajendra
Raphael N. Rajendra

